<html>
<title> - 21ST CENTURY IDEAS FOR THE 20TH CENTURY FEDERAL CIVIL SERVICE</title>
<body><pre>[Senate Hearing 114-52]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 114-52

     21ST CENTURY IDEAS FOR THE 20TH CENTURY FEDERAL CIVIL SERVICE

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
               REGULATORY AFFAIRS AND FEDERAL MANAGEMENT

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 20, 2015

                               __________

                   Available via http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs
                        
                        
                        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     


                        
                        U.S. GOVERNMENT PUBLISHING OFFICE 

95-654 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                        
                        
                        
                        
                        
                        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
                     Laura W. Kilbride, Chief Clerk
                     Lauren Corcoran, Hearing Clerk


       SUBCOMMITTEE ON REGULATORY AFFAIRS AND FEDERAL MANAGEMENT

                   JAMES LANKFORD, Oklahoma, Chairman
JOHN MCCAIN, Arizona                 HEIDI HEITKAMP, North Dakota
ROB PORTMAN, Ohio                    JON TESTER, Montana
MICHAEL B. ENZI, Wyoming             CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska
                     John Cuaderess, Staff Director
                  Eric Bursch, Minority Staff Director

                      Rachel Nitsche, Chief Clerk
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Lankford.............................................     1
    Senator Heitkamp.............................................     2
    Senator Ernst................................................    11

                               WITNESSES
                         Wednesday May 20, 2015

Yvonne D. Jones, Director, Strategic Issues, U.S. Government 
  Accountability Office..........................................     5
Patricia J. Niehaus, National President, Federal Managers 
  Association....................................................     6
Hon. Dan G. Blair, President and Chief Executive Officer, 
  National Academy of Public Administration; Chairman, Postal 
  Regulatory Commission (2006-2009); and Deputy Director, Office 
  of Personnel Management (2002-2006)............................     8
J. David Cox, Sr., National President, American Federation of 
  Government Employees, AFL-CIO..................................    10

                     Alphabetical List of Witnesses

Blair, Hon. Dan G.:
    Testimony....................................................     8
    Prepared statement...........................................    85
Cox, J. David:
    Testimony....................................................    10
    Prepared statement...........................................    96
Jones, Yvonne D.:
    Testimony....................................................     5
    Prepared statement...........................................    29
Niehaus, Patricia J.:
    Testimony....................................................     6
    Prepared statement...........................................    70

                                APPENDIX

Statements submitted for the Record:
    Senior Executives Association................................   109
    Professional Managers Association............................   122
    National Treasury Employees Union............................   130
    National Active and Retired Federal Employees Association....   137
Responses to post-hearing questions for the Record:
    Ms. Jones....................................................   141
    Ms. Niehaus..................................................   153
    Mr. Blair....................................................   161
    Mr. Cox......................................................   168

 
     21ST CENTURY IDEAS FOR THE 20TH CENTURY FEDERAL CIVIL SERVICE

                              ----------                              


                        WEDNESDAY, MAY 20, 2015

                                 U.S. Senate,      
                        Subcommittee on Regulatory,        
                      Affairs and Federal Management,      
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. James 
Lankford, Chairman of the Subcommittee, presiding.
    Present: Senators Lankford, Ernst, Heitkamp, Booker, and 
Peters.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Good morning. This is the Subcommittee's 
first hearing on the Federal workforce. Today we are going to 
explore the policies guiding today's Federal civil service, and 
I appreciate our witnesses being here. I will take some time 
and introduce them in just a moment. Let me set some context.
    The State of the Federal workforce is expansive. The 
Federal Government currently employs 2,663,000--and a few 
additional odds and ends coming in and out--in the Executive 
Branch as civilians. Ensuring that agencies have a process in 
place to efficiently recruit, retain, compensate, train, and, 
if necessary, dismiss problem Federal employees is a difficult 
but essential task. And as the Subcommittee with oversight on 
Federal management, this task falls to us.
    But before we discuss these matters, I would like to take a 
moment to thank our Federal employees for their dedicated 
service. We have a tremendous number of very dedicated patriots 
that serve all over the country, and I am honored to be able to 
serve with them. For individuals that step up and say one thing 
or another about Federal employees, I can tell you, I have met 
a lot, and it is a great group of people.
    I am reminded that 20 years ago in Oklahoma City the Murrah 
Federal Building was bombed, and we lost many Federal employees 
there. The people that went to work that day serving their 
country put their lives on the line. For those of us in 
Oklahoma and for all of us on this dais, we understand, and we 
understand well, that we are very grateful to people who choose 
to serve their country through Federal service.
    It is also true that lately a few bad apples in our Federal 
workforce have made the news. That is a shame. And for those 
individuals, we understand well they do not represent what 
happens in the bulk of the Federal workforce. These stories 
represent the importance of congressional oversight, though, 
both as to the incidents themselves as well as the management 
policies that underlie them. But as they also tend to cast a 
shadow over the good work that individuals across the Federal 
Government accomplish each day for our Nation, we want to try 
to correct and do what we can to be able to minimize that.
    Senator Heitkamp and I are deeply appreciative of the work 
of Federal employee. We are honored for their dedication. We 
are sponsoring a resolution recognizing the first week of May 
as Public Service Recognition Week, and we are joined by many 
of our colleagues on this Committee. We would like to extend 
our thanks again today.
    The issues we will discuss, which may be critical of the 
way the Federal workforce operates today, are not indictments 
on those actually in the Federal workforce. In fact, I would 
wager that many of them share the same concerns as we do as I 
talk to many Federal employees that feel stuck and that their 
voice is not being heard for ways to be able to improve the 
system. So we hope to be able to provide a voice to many great 
Federal employees that have many great ideas on how to improve 
the process.
    For example, some Federal employees may be upset that 
misbehaving employees may be placed on paid administrative 
leave, sometimes for a year or longer, pending a personnel 
investigation. Or some Federal workers may be irritated that 
because of the way in which many Federal agencies compensate 
employees under the General Schedule (GS), they are doing twice 
the work of a colleague but paid the same amount.
    These are just a few concerns that Federal employees have 
brought to our attention. The stakes are high, and the 
responsibility of Congress is clear. Because we rely on Federal 
employees to run our government, it is also important that we 
work together.
    It is time we think critically about many of the policies 
that currently govern the Federal workforce so we can maintain 
a talented pool of employees in the years and decades ahead. I 
look forward to discussing these issues with our members and 
with the witnesses today because the future of the Federal 
workforce depends on it. There is a lot of transition 
happening. We have to navigate it well.
    With that, I recognize our Ranking Member for her opening 
statement.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Chairman Lankford. Today marks 
the Subcommittee's first hearing examining the Federal 
workforce issues. I think that this is such a critical topic, 
and I am passionate about making sure that the workforce of 
tomorrow is the Federal workforce that can meet the needs of 
the constituency groups and can also make us proud as we serve 
in the context of public service.
    Since taking office in January 2013, I have been very 
engaged in this issue because North Dakota, as you know, is 
experiencing an energy boom, and that has created a real crisis 
within our Federal workforce. The great irony of all of this is 
that people, I think, who used to say there are too many 
Federal workers, had a lot of criticism about Federal workers 
in general, now realize that when there are not enough people 
to do permitting in the Bakken at the Bureau of Land Management 
(BLM) and there are not enough grassland managers to actually 
approve plans for those lease holders, not having Federal 
workers creates a real economic challenge.
    And so as a result, we have been very engaged with the 
Office of Personnel Management (OPM) to try and get salary 
adjustments for workers. As a result of that work, I have 
become very intimately involved in the salary structure, 
probably more than any other Member, but I am proud to say that 
working with OPM, we have been able to guarantee salary 
increases for almost 500 Federal employees in North Dakota.
    Perhaps my most pressing concern, however, is why we are 
not retaining Millennials who come to work for the Federal 
Government. You can see that the average period of time--or the 
median period of time that Millennials serve in the Federal 
workforce is actually under 4 years. I doubt that if you did a 
study 20 or 30 years ago, when I would have fit in that 
category, that would have been the result.
    And so when you couple statistics like that with the fact 
that nearly 30 percent of the entire Federal workforce will be 
retirement eligible in 2019, you can see we face some serious 
challenges in staffing the important work of the Federal 
Government.
    So today I want to focus on not only what we can do better 
to recruit young folks, but what we need to do to retain them. 
As someone who used to run a large agency, I spent a lot of 
time on retention because the effort and the dollars in 
training tell you that if you have a good employee, the one 
thing that you definitely want to make sure that you keep is a 
good employee.
    It is no secret why they are discouraged when you look at 
sequestration, pay freezes, furloughs, as well as the 
government shutdown in 2013. That did not exactly add to the 
morale of the Federal workforce.
    But there are other reasons why young people are leaving 
and perhaps more difficult to get at, which is when you look at 
OPM's survey of Federal employees' viewpoints, only one in 
three Millennials believed that creativity and innovation were 
rewarded within their organizations, and only 34 percent of 
them were satisfied with the opportunities for career 
advancement.
    So my goal this morning is to find out from you what we can 
do within the Federal workforce to do these retentions better. 
How can we improve the speed of the hiring process? How can we 
address the inability of the Federal workforce to compete with 
the private sector pay? How do we bridge the gap between human 
resources (HR) departments of agencies and line managers? And 
how do we improve supervisor training and ultimately employee 
morale? These are just a few of the areas I would like to 
explore, and I look forward to hearing the witnesses' testimony 
and to the regular dialogue that we have on this Subcommittee 
thanks to the structure that Chairman Lankford has put 
together.
    But I want to close by just saying this is a critical 
issue. There is not a corporation in America, there is not an 
organization in America, when you say, ``What makes you 
great?'' that does not say, ``Our people.'' And so if we are 
not doing what we need to do to retain the best and brightest 
in public service, then we need to know about it, and we need 
to fix it.
    Thank you, Mr. Chairman.
    Senator Lankford. Thank you.
    At this time we will proceed with testimony from our 
witnesses. Let me introduce the four witnesses. I will 
introduce all four of you. Then we will swear you in, and then 
we will begin your testimony.
    Yvonne Jones is the Director in Strategic Issues of the 
U.S. Government Accountability Office (GAO), where she manages 
teams analyzing Federal Government human capital issues. Prior 
to joining the Strategic Issues team, she was the Director in 
the GAO Financial Markets and Community Investment team.
    Patricia Niehaus is the national president for the Federal 
Managers Association (FMA). Ms. Niehaus has been the national 
president since 2010 and also serves as an active member in the 
National Council on Federal Labor-Management Relations. She is 
an active Federal employee with over 30 years of service and is 
now the civilian personnel officer at Travis Air Force Base in 
California.
    Dan Blair is the President and the Chief Executive Officer 
(CEO) of the National Academy of Public Administration. From 
2006 to 2009, he served as the Chairman of the Postal 
Regulatory Commission (PRC); from 2009 to 2011, he served as a 
Commissioner. Mr. Blair was the Deputy Director of the Office 
of Personnel Management from 2002 to 2006, along with multiple 
other responsibilities. Thank you.
    Mr. David Cox is the national president of the American 
Federation of Government Employees (AFGE). He worked for 
Veterans Affairs (VA) from 1983 to 2006, when he became the 
secretary-treasurer for the AFGE.
    I would like to thank all the witnesses appearing before us 
today, and I really appreciate your written testimony that you 
have already submitted, as well as receiving your oral 
testimony in just a moment.
    It is the custom of the Subcommittee that all witnesses are 
sworn in before you testify, so if you do not mind, I would ask 
you to stand and raise your right hand. Do you swear or affirm 
that the testimony you are about to give before this 
Subcommittee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Ms. Jones. I do.
    Ms. Niehaus. I do.
    Mr. Blair. I do.
    Mr. Cox. I do.
    Senator Lankford. Thank you. You may be seated. Let the 
record reflect that all witnesses answered in the affirmative.
    We will be using a timing system today. I think everyone is 
familiar with that. There will be a little clock in front of 
you. That will count down to zero. We are giving everyone about 
5 minutes, if you can be as close to that as possible, and then 
we will have multiple rounds of questioning. It is the 
tradition of this Committee that the first round of questions 
will go 5 minutes for each person, and then we will open up a 
second round, which will be open colloquy with no timing on it, 
and that will allow us to interchange here on the Committee 
dais as well as with you. So expect two rounds of questions, 
and the second round will be more informal than the first, if 
that is OK.
    Ms. Jones, you are recognized first. Thank you.

 TESTIMONY OF YVONNE D. JONES,\1\ DIRECTOR, STRATEGIC ISSUES, 
             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Jones. Chairman Lankford, Ranking Member Heitkamp, and 
Members of the Subcommittee, thank you for the opportunity to 
discuss the State of the 21st Century Federal civil service and 
what can be done to ensure a top-notch Federal workforce.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Jones appears in the Appendix on 
page 29.
---------------------------------------------------------------------------
    Strategic human capital management plays a critical role in 
maximizing the government's performance and assuring its 
accountability to the Congress and to the Nation. But strategic 
human capital management has been one of GAO's high-risk issues 
since 2001.
    Congress, the Office of Personnel Management, and some 
agencies have addressed human capital challenges. For example, 
in 2002, Congress created the Chief Human Capital Officer 
(CHCO) position in 24 agencies and the Chief Human Capital 
Officers Council (CHCOC). And Congress provided the agencies 
with various authorities and flexibilities to manage the 
Federal workforce, but more remains to be done. I will describe 
five concerns about Federal workforce management.
    First, the classification system. The General Schedule 
classification system was designed to uphold the key principle 
of equal pay for work of equal value, but the system is 
experiencing difficulties. Its occupation descriptions are 
considered too narrow to easily shift people between jobs, and 
its pay rules make it harder for agencies to recruit and retain 
valued employees. GAO concluded that we need a more modern and 
effective classification system which retains merit at its 
core, but which is more flexible.
    Second, the Federal workforce has many critical skills gaps 
like cybersecurity and contract specialists. The Federal 
Government also needs to better identify future skills gaps. To 
close these gaps and predict future shortages, the Office of 
Personnel Management and agencies will need to collect and 
analyze data to be used in agency and governmentwide workforce 
planning.
    Third, the Executive Branch agencies are managing their 
workforces in an era of constrained budgets. Therefore, they 
need to rethink how they do their own planning and how they 
work with other agencies. We found that the Federal human 
capital community is fragmented, with many actors executing 
personnel policies in ways not helpful to governmentwide 
workforce management. Our analysis showed that agencies have 
many common human capital challenges, but they address them 
alone. And we found that agency talent management tools lack 
two ingredients: identifying skills in their current workforces 
and moving people with needed skills to emerging or permanent 
positions.
    The fourth issue is strengthening assessment of employee 
and senior executive performance. Adequately managing employee 
performance is a longstanding governmentwide issue. Without 
effective performance management, agencies risk losing the 
skills of top talent and failing to correct poor performers. 
But supervisors do not always have the skills to help staff 
address performance issues.
    Evaluating the performance of senior executives is also 
important. By law, for senior executives to receive higher 
levels of pay, their performance appraisal systems must make 
meaningful distinctions based on an individual's performance 
compared to other executives. Recently, we found that 85 
percent of senior executive service (SES) ratings were bunched 
in the top two ratings categories, raising questions about 
whether adequate distinctions are being made between 
executives.
    And, fifth, retaining high-performing employees is critical 
to Federal Government operation. To retain employees, the 
Federal Government needs to strengthen worker engagement. 
Preliminary observations from our ongoing work found that 
governmentwide average levels of employee engagement declined 
from 67 percent in 2011 to 63 percent in 2014. The decline in 
the governmentwide average occurred because of drops in 
engagement at three large agencies: Department of Defense 
(DOD), Department of Homeland Security (DHS), and Veterans 
Affairs. But the majority of Federal agencies sustained or 
improved their engagement scores. Of 47 Federal agencies, 31 
had steady scores, 3 increased their scores, and 13 had 
declining scores. The large number of agencies that sustained 
or increased engagement scores during challenging times 
suggests that agencies can influence employee engagement levels 
even in difficult circumstances.
    In conclusion, greater progress will require continued 
collaborative efforts between the Office of Personnel 
Management, the Chief Human Capital Officers Council, 
individual agencies, and continued congressional oversight.
    Chairman Lankford, Ranking Member Heitkamp, and Members of 
the Subcommittee, this completes my prepared statement, and I 
am pleased to respond to any questions that you may have at 
this time.
    Senator Lankford. Thank you. Ms. Niehaus

   TESTIMONY OF PATRICIA J. NIEHAUS,\1\ NATIONAL PRESIDENT, 
                  FEDERAL MANAGERS ASSOCIATION

    Ms. Niehaus. Chairman Lankford, Ranking Member Heitkamp, 
and Members of the Subcommittee, I am the national president of 
the Federal Managers Association and chief of civilian 
personnel at Travis Air Force Base in California. Thank you for 
allowing me to present FMA's views before you today. I am here 
on my own time and of my own volition, and I do not speak for 
the Air Force. I am here representing FMA's members.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Niehaus appears in the Appendix 
on page 70.
---------------------------------------------------------------------------
    The Federal civil service no longer reflects the standards 
today's job seekers expect. FMA supports changes that increase 
flexibilities, accountability, and performance results. In my 
written testimony, I address a number of challenges and FMA's 
recommendations in these areas.
    After the satisfaction of serving our country, two of the 
most often cited attractions of civil service--retirement 
benefits and job security--are seemingly under endless attack. 
As FMA's national president, I hear how proud our members are 
to serve our Nation. In Oklahoma, FMA has chapters at both 
Tinker Air Force Base and McAlester Army Ammunition Plant. And 
in North Dakota, thousands of people rely on Social Security 
checks and the Internal Revenue Service (IRS) returns. It is 
discouraging to be constantly maligned and have our benefits 
attacked. FMA members comment on how this affects morale, which 
negatively impacts productivity, employee retention, and the 
ability to complete congressionally mandated missions. FMA 
urges Congress to avoid legislative efforts that would hurt 
retention and morale.
    FMA believes the General Schedule should be utilized as a 
stepping stone to a more evolved system that focuses on pay for 
performance and reflect the needs of the present Federal 
workforce. Departments and agencies must have maximum 
flexibility and the ability to compete with the private sector 
to attract the best and the brightest men and women to answer 
the call of public service.
    The current system promotes a workforce based on longevity 
rather than performance. The highest-performing employees 
should be rewarded with the highest rates of pay; those 
employees who fall below the curve in terms of overall 
performance should not be rewarded at the same level. 
Management should be a profession in the Federal Government 
rather than an additional duty. Managers must have time to 
manage instead of being technicians. First level supervisors 
and managers need access to training programs that are 
sufficiently funded. Investments must be made in training in 
areas such as addressing poor-performing employees, enhancing 
mentoring skills, and conducting accurate performance 
appraisals in order to recognize problems early and deal with 
them at the lowest possible level.
    FMA calls for the introduction of legislation that requires 
agencies to provide supervisors with interactive, instructor-
based training on management topics ranging from mentorship and 
career development to hostile work environments and poor 
performers within one year of promotion and ongoing training 
once every 3 years thereafter. In addition, the measure should 
include an accountability provision to establish competency 
standards to ensure the training is effective.
    Initial and supervisory probationary periods were intended 
to be an extension of the hiring process. It is a time to 
evaluate the employee or manager and determine whether they are 
suited not just for the current position, but also for Federal 
service. Some career fields are so complex that it takes more 
than one year to properly train an entry-level employee. 
Extending the probationary period to one year after completion 
of the initial training would benefit the government and the 
employees, allowing supervisors to make decisions based on the 
employees' performance as fully trained employees and not just 
guess at how an employee will perform after the training is 
completed.
    Too often pay comparisons between public and private 
sectors miss the mark because they do not compare positions 
with like positions. An accurate comparison cannot be made 
between a registered nurse at a VA hospital and someone 
performing manual labor at a nursing home. It is essential that 
any comparison and study of compensation ensure that skill 
levels, experience, education, and job duties are truly 
comparable.
    FMA is grateful to the Homeland Security and Governmental 
Affairs Committee for unanimously supporting the Wounded 
Warrior Federal Leave Act, which would provide sick leave up 
front for our newly hired disabled veterans. We are proud to 
have originated this initiative, and we look forward to having 
it passed and signed into law.
    The Federal civil service should be the model employer that 
others emulate. We should be such an attractive employer that 
young people are lining up to compete for positions as their 
first choice. This hearing is an important step toward 
determining what Congress should do to restore the faith in the 
men and women who make up the Federal workforce and ensure that 
missions are met as efficiently and effectively as possible.
    Thank you for the opportunity to present our views, and I 
am happy to answer any questions you may have.
    Senator Lankford. Thank you. Mr. Blair.

  TESTIMONY OF THE HON. DAN G. BLAIR,\1\ PRESIDENT AND CHIEF 
 EXECUTIVE OFFICER, NATIONAL ACADEMY OF PUBLIC ADMINISTRATION; 
CHAIRMAN, POSTAL REGULATORY COMMISSION (2006-2009); AND DEPUTY 
      DIRECTOR, OFFICE OF PERSONNEL MANAGEMENT (2002-2006)

    Mr. Blair. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Blair appears in the Appendix on 
page 85.
---------------------------------------------------------------------------
    Before I begin, I would like to take a moment to introduce 
three burgeoning potential public servants in the audience 
today who are serving as Academy interns this summer. We have 
Calvin Charles, Caroline Mihm--you may recognize the last name 
because Chris Mihm is her father, who is a liaison from GAO to 
this Subcommittee--and Robin Bleiweis. I would like to welcome 
them here today.
    Chairman Lankford, Ranking Member Heitkamp, and Members of 
the Subcommittee, I appreciate the opportunity to testify 
today. I serve as the President and CEO of the National Academy 
of Public Administration, an independent, nonprofit, 
nonpartisan organization chartered by Congress. Our 
organization consists of over 800 Fellows--including former 
Cabinet officers, Members of Congress, Governors, mayors, and 
State legislators, as well as distinguished scholars, business 
executives, and public administrators.
    Today's civil service challenges have roots that stretch 
back more than a quarter century. In 1989, the first Volcker 
Commission highlighted many of those problems. While they have 
morphed in form, the Federal Government's workforce challenges 
have been identified many times over. Some can be addressed at 
the administrative level; others will require bolder action, 
buttressed by legislation.
    First, let us talk about the Federal hiring process. This 
has long exasperated Congress and multiple administrations. 
Flexibilities exist in this area if agencies would just use 
them.
    I would not recommend that at this point, Congress enact 
new legislation regarding hiring. Time to hire is important, 
but a shortened timeframe may not yield the quality of hires an 
agency needs. Time to hire is a critical component, though, of 
the larger component of quality hires. OPM must provide strong 
leadership, and agencies must focus leadership attention. It is 
important to connect program and hiring managers with human 
resources staff to make sure the position description and 
vacancy announcements suit the hiring manager's needs.
    You asked me to address issues surrounding Federal employee 
accountability. We hear almost weekly about poor-performing 
Federal employees and the reported inability to hold them 
accountable. I have the greatest respect for civil servants, 
and these reports are certainly not representative of the 
workforce at large. Yet they poison the atmosphere and lead to 
cynicism and distrust of the civil service and government.
    The current appeals system was put in place as a reaction 
to attempts to politicize the workforce in the Watergate era, 
and it was premised on the concept of merit.
    To increase accountability, especially at the SES level, 
the Subcommittee could explore the greater use of term 
appointments. Some agencies like the VA have received special 
authorities. The question now is whether the Department will 
use them.
    Further, the Subcommittee may want to consider increasing 
probationary periods for new senior executives and General 
Schedule employees.
    For General Schedule employees, a complex maze of appeals 
exists. Employees can utilize the Merit Systems Protection 
Board (MSPB), the Equal Employment Opportunity Commission 
(EEOC), and potentially a union grievance system. Modernizing 
the appeals process consistent with the public interest, 
constitutional requirements, and Supreme Court case law is a 
complex task, but one worth engaging to restore the public's 
trust in the civil service.
    Federal employees themselves view the current system with 
cynicism. Both a recent Vanderbilt University survey and the 
2014 Federal Employee Viewpoint Survey confirmed these views. A 
recent MSPB study notes that 77,000 Federal employees were 
fired over a 14-year period. Based on my interpretation of the 
study, it seemed like the agency was promoting the fact that a 
system is in place to remove poor performers and it works. But 
if you run the math, removing 77,000 employees over a 14-year 
period calculates to about 5,500 employees per year. With a 
Federal civilian workforce of over 2 million people, the 
percentage of employees relieved of their duties is paltry in 
comparison.
    One reason for such inaction is the need for increased 
capacity from the Federal H.R. workforce to deal with the 
complex civil service procedures. As personnel systems become 
more decentralized, the need for increased H.R. capacity grows.
    A larger question arises whether the landmark 1978 Civil 
Service Reform Act is due for an overhaul. My written testimony 
asks a number of questions, such as, do we need the complex 
number of agencies that we have today handling civil service 
issues? OPM, MSPB, Office of Special Counsel (OSC), and the 
EEOC all have roles. Do we need a centralized personnel office? 
If so, how should it be structured? And is OPM that entity? 
Also, how do we address the General Schedule pay structure? And 
can the OPM White Paper on Pay from 2002 serve as a guide?
    I would suggest that any private sector entity operating 
with a nearly 40-year-old personnel system and a nearly 70-
year-old pay system would likely be out of business today.
    Many of the questions I have raised today lend themselves 
to a thorough and comprehensive process of review. This is an 
excellent issue to tee up for the upcoming transition in 2016 
and 2017. Civil service reform is one area ripe for discussion.
    Mr. Chairman, that concludes my prepared statement, and I 
would be pleased to answer any questions the Subcommittee may 
have.
    Senator Lankford. Thank you. Mr. Cox.

TESTIMONY OF J. DAVID COX, SR.,\1\ NATIONAL PRESIDENT, AMERICAN 
          FEDERATION OF GOVERNMENT EMPLOYEES, AFL-CIO

    Mr. Cox. Mr. Chairman, Senator Heitkamp, and Members of the 
Subcommittee, on behalf of the more than 670,000 Federal 
workers AFGE represents, thank you for the opportunity to 
testify today on the modernization issues facing the Federal 
workforce.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cox appears in the Appendix on 
page 96.
---------------------------------------------------------------------------
    Any discussion of modernizing the Federal Government must 
begin with an understanding that the Federal workforce is 
highly trained and educated, technologically literate, and 
ready to meet the many challenges we face today. If we are 
serious about ensuring that the Federal Government can address 
the problems facing society, then, simply put, our elected 
officials must stop attacking the Federal workforce.
    Since 2011, Federal workers have sacrificed $159 billion in 
cuts to their compensation, sometimes in the name of deficit 
reduction and sometimes to pay for other priorities. President 
Obama froze their pay for 3 years, followed by increases to 
employees' pension contributions by 2.3 percent for those hired 
in 2013 and 3.6 percent for those hired thereafter.
    Chairman Lankford, right now at the Oklahoma City VA 
Medical Center, they are hiring an occupational therapist with 
a starting salary of around $45,000. That newly hired employee 
will pay over $1,600 more per year than someone in the same 
exact job in the same hospital hired prior to 2012 or before. 
That is two mortgage payments and a few weeks of groceries.
    Senator Heitkamp, at Grand Forks Air Force Base, they are 
hiring a social worker at a starting salary of around $58,000 a 
year. That new employee will pay $2,100 more per year than 
someone in the exact same job hired prior to 2012 or before. 
These cuts need to be repealed and full retirement benefits for 
all Federal workers restored.
    In addition to these retirement cuts, Federal employees 
have also endured sequestration furloughs and a government 
shutdown in 2013. I remind you of this sequence of events and 
the cuts imposed on Federal employees not just because they are 
unfair to them, but because they directly affect recruitment 
and retention. What would make a medical researcher working on 
a cure for cancer at the Muskogee VA Hospital or an electrician 
who repairs complex weapons at Tinker Air Force Base choose 
public service if their jobs were subject to salary cuts, 
furloughs, and government shutdowns year in and year out?
    To its great credit, the General Schedule prevents 
discrimination based on gender, ethnic backgrounds, religion, 
sexual orientation, or disability. Over the last few decades, 
numerous flexibilities and updates have modernized and improved 
the GS system. The most recent example of this is in the Bakken 
region of North Dakota where Federal salaries were far outpaced 
by private sector pay. We commend you, Senator Heitkamp, for 
your tireless efforts to urge OPM and DOD to implement special 
pay rates and other flexibilities to make Federal wages more 
competitive with those in the private sector.
    AFGE believes that a modern government must promote due 
processes and constitutional rights. Federal employees are not 
immune to termination, and the civil service rules exist to 
promote the constitutional principles of due process and to 
prevent the reestablishment of a Federal patronage system.
    Finally, AFGE believes that a modern government must 
promote employees' engagement and empowerment. A modern 
workplace must value and implement transparency, fairness, and 
accountability. The easiest way to achieve all these things is 
by negotiating good and fair contracts to provide a meaningful 
channel for workers to provide input and for managers to learn 
from front-line workers. This creates a more nimble environment 
for identifying and solving problems and getting the work done.
    This concludes my statement, Mr. Chairman. I would be happy 
to respond to any questions.
    Senator Lankford. Thank you. Thank you to all of you for 
your written and your oral testimony. The Ranking Member and I 
will defer our time for questions. We are going to do ours at 
the end, and we will recognize Senator Ernst to go first.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you very much to our panel. It is 
great to have all of you here. I think this is a much needed 
conversation as we look at our Federal employees and the 
workforce. Great points made, David, on some of those issues. 
And I often feel our military men and women are subject to the 
same scrutiny.
    Anyway, I would like to start with Ms. Jones. Thank you for 
being here today. I appreciate it very much. You have made 
reference to a set of eight recommendations that OPM should 
take to ensure a more modern and effective classification 
system, and I would like to touch on this, because for the last 
few months I have been digging into an area in the acquisition 
world across the Federal Government, specifically program and 
project management, that seems to be struggling. And I think 
part of that reason is due to gaps in the GS system as it 
relates to the classification of program and project 
management. And program and project management is the only 
fundamental job component of the acquisition process that does 
not have a distinct job series. And subsequently available 
program and project management positions are funneled through 
the general management positions or classifications where the 
desired skill set and required experience is very different.
    And, in fact, program and project management falls under 
the series 0340, which is kind of a catch-all general 
management listing, and I think OPM would agree with that 
assessment. It is not conducive to finding qualified 
individuals for this very particular role.
    If you were to go to opm.gov and look at the qualifications 
needed for program management, it actually says, ``There are no 
individual occupational requirements for this series.''
    As I have looked at this and analyzed the struggles we have 
with the large Federal programs being over budget and off 
schedule, it appears that these issues could begin to improve 
if we had a better classification and listing of requirements 
needed for program and project managers. And just one more 
thing in this area. This lack of a credible listing has made it 
challenging for outsiders to locate who and where program and 
project managers are in the Federal Government.
    So can you speak maybe to this issue a little bit? And I 
realize you may not be familiar with this specific case for 
project management, but I have a sense that it maybe is a 
broader issue within the GS system. If you could just discuss 
that a little bit, please.
    Ms. Jones. Yes, I can speak to that. Our work has not 
focused on those particular kinds of jobs, but it is, I think, 
reflective of what we found in a more general sense, about 
trying to fill critical skills gaps in the Federal Government--
because we did find that agencies and OPM sometimes have 
trouble writing job descriptions that are reflective of the 
work that needs to be done, and also changing those job 
descriptions expeditiously. And so in a situation like that, it 
may very well be hard for agencies to advertise positions or to 
have job descriptions which allow them to advertise positions 
so that they get the kind of applicants that they would want.
    We do know that OPM and a number of the agencies are 
working together to try to figure out not only how to define 
position descriptions, but also to write the competencies that 
underlie those descriptions, and they are trying to figure out 
how to do it more quickly.
    I hope that answers your question.
    Senator Ernst. Yes, that is very helpful, and I do think 
also with USAJobs as a resource site out there, it is very 
difficult to navigate that as well for some of the best and 
brightest that wish to apply for these types of Government 
positions. It is a true struggle. If you could just speak to 
that, please.
    Ms. Jones. OK. We are aware of issues that have been 
reported about USAJobs. We have not directly examined USAJobs 
and how its operation may affect an applicant's ability to use 
it. We have begun now a job on hiring in the Federal Government 
which may look at that particular issue, but I cannot give you 
more specifics right now.
    Senator Ernst. OK. Well, I appreciate that. I think that is 
something that we will look at in the future. Thank you very 
much.
    Senator Lankford. Senator Heitkamp.
    Senator Heitkamp. Thank you, Mr. Chairman.
    A number of young people, who I am sure are here on a 
close-up program or visiting Congress, are in the audience, and 
I am tempted to ask them: How many of you want to be an IRS 
auditor? None of them.
    how many of you in the audience of the young people who are 
here want to be a Federal employee? There are a couple.
    And once you get there, you might not like it, and you 
might leave before 4 years are up. Or you might like it, and 
that is our job here, to try and figure out how we put the best 
person in the job that fits them and will challenge them and 
will give them the job satisfaction. I think the one thing that 
we miss when we look at a lot of economic indicators, whether 
it is retirement--and, sure, that matters--whether it is pay 
raises and great supervision, but we have to do a better job, I 
think, recruiting, training, and retaining the young people of 
America, or we are not going to be moving forward. We are not 
going to be the organization or the Government that we need to 
be in order to address the concerns of the citizens.
    And so I want to get at that issue, what you think the 
primary barriers are of attracting and retaining these new 
Millennials and what we should be doing right now in analyzing 
the ones under 20 who have entered the Federal system and now 
are transitioning out. And I want to start with you, Mr. Blair. 
I think you have probably spent a lot of time looking at those 
schedules into the future and saying, ``We have a crisis of 
retirement without a qualified workforce coming behind it.''
    What would you do if you were in Senator Lankford's and my 
role here and the Committee's role?
    Mr. Blair. Well, I would say, ``Do we have meaningful work 
for these Millennials who are coming in?'' And I think the 
answer for that is absolutely yes. I think that the mission is 
absolutely critical, and that is what distinguishes the Federal 
Government from other private sector employers.
    Then I think we have to look at the workplace itself. What 
is the course for advancement? How long do you have to stay in 
grade before you have to stand for promotion? I think those are 
issues. Am I going to be recognized for the work that I do? If 
I am part of a team, if I carry the team, am I going to be 
recognized or am I going to have to be lumped in with everyone 
else?
    I think those are critical issues, and I do not think our 
systems today match that. In an effort for what was called 
``internal equity,'' we basically treated most people the same, 
and that is not--while it is an admirable goal, I think that in 
today's environment we need to be able to have tools available 
for us to recognize outstanding service. And those tools are 
awkward in the Federal civil service today.
    Senator Heitkamp. Mr. Cox, can you respond to that and 
maybe offer some insight from the perspective of the people you 
represent?
    Mr. Cox. The first thing I would say is I believe it is 
very important for Congress to get rid of sequestration because 
that continues to loom over the top of everyone who works for 
the Federal Government or has a future of wanting to work for 
the Federal Government, because as long as that is there, it is 
just a stumbling block for what the future may hold, whether 
the agencies would be funded. So sequestration I think is the 
number one problem.
    But also, again, I would agree with my colleague here, 
meaningful work, but, again, adequate pay, adequate training, 
having the resources of that agency so that the person comes in 
and feels supported in the agency. I went to work at the VA as 
a registered nurse. Within the first week, all of a sudden I 
realized I was the only registered nurse the first week on the 
job on the floor working. That was not the best orientation or 
the best environment to be had. You need more people there to 
spend time to mentor, to orient folks, and it was not the fact 
that they did not care. They did not have enough resources to 
hire enough nurses or there were not enough nurses available to 
be hired. So those types of things, having the resources to 
fund the agencies is very important.
    Senator Heitkamp. My time has expired. We have a pretty 
free-flowing discussion period after this, and so we will get 
out all your points.
    Senator Lankford. We will. Thank you.
    At the end of this conversation, we will work together to 
try to create a product, whether that is a legislative product 
or whether that is a series of letters to do as followup to try 
to figure out where we are going to followup from here on the 
ideas, both from what you have submitted written and orally. So 
I do want you to continue to think about that, some of the work 
product at the end of this.
    Mr. Blair, let me ask a question that you had brought up as 
well, and that is the issue of the transition. Every time there 
is a Presidential transition, regardless of party, there is a 
shift and a relook again. So I would be interested in an open 
conversation about what things can we do as a Committee to help 
the next President prepare for that transition, things that we 
can put in place and say these issues need to be addressed when 
that transition occurs.
    Mr. Blair. Thank you, Mr. Chairman. I think what Senator 
Ernst just raised was very important, this program 
implementation, because we have seen failures of program 
implementation across government for many years now, and that 
is one of the focuses of the Academy's transition work. Last 
week, we launched our Transition 2016 Initiative, and our focus 
is going to be on program implementation to make sure that the 
incoming Administration has before it the information it needs 
to evaluate how programs are being implemented, what is 
working, what is not working, and so they do not just throw the 
baby out with the bath water by saying the past Administration 
was bad, we are good, we do not have anything to do with it, 
and we want to start again from scratch.
    So I think program implementation is extraordinarily 
important. I think that for the transition, civil service 
reform, while I do not know if there could be broad bipartisan 
agreement based upon the past decade of experience, but I think 
there can be some tenets to look at. And I would not recommend 
that we go forward with a baked cake for a new Administration, 
but you can certainly tee up the issues to make it part of 
their management agenda to determine how do we want to step 
forward with these kinds of reforms. This Subcommittee is 
poised and primed to do that.
    Senator Lankford. Right. Well, that is what we are trying 
to gather at this point--ideas. We have our own. We are trying 
to gather other insight from other individuals as well.
    Any other ideas that can come out? Obviously there is some 
in your written testimony as well. Do others want to contribute 
to basic ideas of if we are going to look at serious things to 
be able to transition in a couple years, things that need to be 
addressed when that transition comes?
    Mr. Cox. Sir, I would think, trying to go back, the Federal 
Employee Pay Comparability Act that goes back many years that 
said that we would pay Federal employees in comparison to what 
the private sector is being paid. It has never been 
implemented. Each year, the President, Congress, someone 
preempts the process. But I think trying to get Federal 
employees paid in accordance with the private sector with 
similar work that they are doing would be very important.
    Senator Lankford. OK. Other ideas?
    [No response.]
    Let me transition to another thing. Then we will come back 
to it. I want to talk a little bit about what Senator Heitkamp 
was talking about, and that is recruiting. Does anyone know the 
cost of recruiting right now? The private sector can look at it 
and say if they are going to try to recruit someone new to 
their company, they have a basic cost of what that is. Do we 
have a good guesstimate of a cost of recruiting a new Federal 
employee? You have not seen that? OK. We will do some chasing 
and see if we can determine that and see not only retention but 
cost and how that works.
    Ms. Jones, you made a comment and through your study, as 
you looked at the Employee Engagement Index that you created, 
which you also referenced in both your written and your oral 
testimony on it, 13 of 47 different agencies had declining 
Employee Engagement Index scores, 3 of 47 had an increase, 31 
of 47 were flat. Now, what I am interested in is, Can we get a 
list of those different agencies so we can begin to compare? 
You had mentioned the big 3 there in the decline, 3 of the 13 
that had a decline: Department of Defense, Homeland Security, 
and Veterans. Can you determine the why on those? Obviously, it 
is a large number of employees, but it also had a significant 
decline, but some of the 10 other entities.
    Ms. Jones. In terms of the list of the entities, actually 
what we were doing was reporting evidence from OPM's Employee 
Engagement Index, so, yes, giving you the names of all the 
agencies is certainly feasible.
    What we know about what increases in employee engagement 
based on the index is the relationship that the employee has 
with his or her supervisor, the extent to which the employee is 
getting--feels that the work that they are doing is important 
and they can connect it with the mission of the agency, the 
extent to which they feel that they are getting training and 
developmental opportunities, whether they feel they have an 
adequate work-life balance, whether there is an inclusive 
environment in the agencies--all of those things contribute to 
an employee feeling engaged.
    I could supply you later with more detail about the three 
large agencies and what the particular factors may have been.
    Senator Lankford. OK. Let me do that. Let us just open this 
up for open conversation. I will go ahead and transition this 
into our second round here, and all of us can participate at 
any point. But let me add to that. Why for Department of 
Defense, Homeland Security, and Veterans, what is your 
perception? As GAO looks at this and the scoring that came in 
from OPM, is there any single factor? You mentioned that, but 
what is happening there that is not happening in other places 
that Homeland Security, Defense, and VA are having issues with 
supervision, having issues with engagement? What is driving 
that?
    Ms. Jones. OK. I would have to provide you later more 
detailed information on those particular agencies. The Employee 
Engagement Index aggregates information across 15 different 
questions, so we would have to look at the disaggregation and 
provide you with that detail, if you do not mind.
    Senator Lankford. That would be helpful to us as we get a 
chance to look at the workforce, because obviously we want to 
look at why there is a decline in one area. And for the three 
that had the increase, do you happen to recall the three that 
had the increase in score, who they were? I did not see it in 
your report.
    Ms. Jones. The Department of Education was one. Yes, I do 
not recall the other two at the moment.
    Senator Lankford. Well, that would be helpful to us, to 
get, I guess, both extremes there. The 13 that had the decline, 
the 3 that had the increase, and try to figure out what is 
happening in each of these agencies that can be information 
shared. And I understand not every agency is the same and their 
structures are not the same, nor are we trying to make them all 
the same. It would be like trying to make all 50 States the 
same. They are not. But there are some things that we can learn 
from one and be able to share with the other, and that would be 
helpful to us.
    Ms. Jones. Certainly, we can provide you with that.
    Senator Lankford. OK.
    Senator Heitkamp. I want to just for a minute kind of talk 
about morale, because it all begins there, in my opinion. I 
think that you can, of course, look at the economics, but at 
the end of the day--and being a mother of two Millennials, I 
think that what they are looking for is job satisfaction. And, 
I ask these young people, How many of you want to be an IRS 
agent? They immediately have an idea. What does an IRS agent 
do? And that would be a bad thing. People would not like me. 
Right?
    But if you ask them, How many of you want to help fund 
cancer research in the Federal Government so that we can solve 
childhood cancer problems? Or if we said--I just spent some 
time yesterday with General Welsh, Chief of Staff of the Air 
Force, and he said their recruitment policies, they were going 
in the wrong direction. They needed to sell the Air Force. And 
so, ``I am an American airman.'' You may have seen those 
commercials. They are brilliant.
    And so one of the things that we do not do in the workforce 
is we do not connect these jobs and these categories that we 
all talk about. You know, if you are an H.R. specialist, you 
all talk about the classification, but we do not connect them 
to the larger mission. And when people feel connected to the 
larger mission, they tend to want to stay. They tend to want to 
continue. When we did the Air Force base adjustments, OPM was 
out, and I said, ``OK, of all you civilian employees, how many 
of you are veterans?'' And over half of them stood up, because 
they are still in the mission. They wanted to continue the 
mission that they started when they put on a uniform.
    And so one of the things that I think we get too 
bureaucratic in a lot of ways in how we look at this, and we do 
not connect our employees to the mission, to the goal of the 
organization. And so I think it takes maybe some enlightened 
leadership or some different thinking at the top of how you 
think about the job that you are doing, not in terms of just 
widgets and, counting chits, but you think about it in terms of 
what does that do.
    And I want to just close out by saying I gave a talk to the 
American psychologists, and they were headed up to the Hill, 
and behavioral health and mental health has had some real 
challenges in terms of funding and parity, and they were pretty 
low. And I said, ``When you go in to see your Senator or your 
Congressman, why don't you just tell them''--``Do not tell them 
you are a Ph.D. psychologist. Tell them you save families for a 
living.'' You could visibly see, when I ran into them in the 
hallways, their step was a little lighter, because all of a 
sudden they had that image. ``That is what we do. We do not 
counsel,'' all of the bureaucratic things. ``We save families. 
That is our mission.'' And when you are connected kind of 
emotionally to a mission, when you are connected spiritually to 
a mission, you are going to stay with it even through some 
tough times.
    And so one of the things that I would want to put on the 
table is: How do we sell the Federal service? How do we talk 
about the jobs that so many of our great Federal employees do 
and how that connects with the broader or brighter kind of 
opportunity? And I would be curious if any of you see examples 
of that and where it is good and where it is not good.
    Mr. Blair. Senator, if I could begin, I think you hit the 
nail on the head on this with leadership. It is up to the 
department heads and agency heads to set the tone from the top 
down as to the importance of the workforce. And if that is a 
priority for them, if they are being held accountable for it, 
they can hold their senior executives and managers and 
supervisors, and it can cascade down through the system. So it 
is leadership, it is accountability. It is also a question of 
promoting the mission. Everyone within a department or agency 
should know how their jobs feed into the success of the 
organization. If they can point and say, ``Yes, what I am doing 
is important because it leads to saving families,'' that gives 
a sense of ownership.
    Senator Heitkamp. Yes.
    Mr. Blair. And so, again, these are issues for agency 
leadership. I look at this as either internal factors such as 
what can they do--what can be done within the agency or 
department, but then there are also the external factors. And I 
think that more needs to be done in promoting the service of 
the public. And in this regard, I think there are several areas 
to look into. The Presidential Rank Awards, we had that several 
weeks ago. These are senior executives that are nominated, and 
it goes through a process at OPM in which a select few, I think 
about 50 this year--I cannot remember the exact number--
received Presidential Rank Awards. These are the highest awards 
you can get for the Senior Executive Service.
    I hope you have all heard of them, and if you have not, 
that is a problem because that means that we are not 
publicizing them enough. The President met with the award 
winners for the first time in his Administration I think last 
year, and I think that sends a very strong message. If you look 
at the people who win these awards, it will blow your socks 
off, because they are doing incredible things.
    But it is just more than the SES. I will be participating 
in a ceremony in a couple weeks at George Washington University 
for the Flemming Awards, which recognize Federal employees who 
are in mid-career, 3 to 15 years of service. Again, outstanding 
employees.
    The Partnership for Public Service does the Sammies Awards. 
These types of external events bring attention, but we also 
have to recognize that we need to do more to change the tone 
and tenor of how we discuss our civil servants.
    Senator Lankford. Let me just throw one thing in there as 
well. You talk about good examples of engagement on this. Mr. 
Cox had mentioned at one point Tinker Air Force Base. The 
Federal workforce at Tinker Air Force Base, the civilians that 
are there, have this incredible partnership with the men and 
women in blue. They are not aircraft that fly in the Air Force 
that have not gone through Tinker Air Force Base, and they 
understand the mission, where they fit into the mission, but 
they are also heard. So when there is a problem on the floor, 
when you are doing maintenance, there is a method already where 
they can communicate; and if any person on the floor has any 
issue, they know who to go to, and it actually gets heard. And 
it is very important. So that structure that is in place there, 
it is the same type of thing at the Federal Aviation 
Administration (FAA) in Oklahoma City where there is a great 
relationship where people get heard in the process, and I think 
it is very meaningful.
    I want to mention one other thing, too, and I know we all 
have different questions on this, but several of you mentioned 
about lengthening the probation period. I was interested by 
that in the conversation, and there were multiple different 
ideas about the length of that probation period, how long it 
should be, when it should start. I would be interested in just 
a conversation about that and how we try to amalgamate some 
ideas here.
    Ms. Niehaus. One of the things that FMA has been looking at 
for several years now is the fact that our members are 
reporting to us that when they have to make a decision on 
whether or not to retain a new employee, many of them are still 
in training. We were talking at a government managers coalition 
meeting with an FAA manager who said that they do not even see 
some of their new employees until they have been in training 
for 10 or 11 months. So the supervisor has not even met the 
employee when they have to make that determination whether they 
are going to keep them or not.
    Senator Lankford. So your statement is the probation period 
for them, that one year time period starts when they have only 
really seen them for 2 months because it started earlier.
    Ms. Niehaus. Yes. It starts on the day they are hired.
    Senator Lankford. Right. So I am trying to identify. Your 
recommendation is the one year probation period starts after 
training begins and they are actually assigned to that spot, 
where they actually work their way----
    Ms. Niehaus. Yes. After they are trained and the initial 
training is completed, then let them work our their 
probationary period and show that they can do the job rather 
than have a supervisor guess.
    Senator Lankford. OK. Other ideas and thoughts?
    Mr. Cox. I think the probationary period is not going to be 
a one-size-fits-all. When you have someone who is an SES'er 
that is responsible for large numbers of people, at a large 
Federal installation, that is one thing. When you have a 
housekeeping aide in a VA medical center, currently has a one 
year probationary period, if you do not know that that 
housekeeping aide is performing or not performing in one year, 
then you have a much higher problem with the management level, 
not the housekeeping aide. And registered nurses already have a 
2 year probationary period in the VA.
    TSA, the entire agency, is a 2-year probationary period. 
TSA has probably the highest turnover of any government agency. 
It also has a different pay system than the GS pay system. So I 
do think looking at some things about TSA, their pay, their 
probationary period, high turnover numbers, may be a benefit 
also to give some insight. But I do not believe it is a one-
size-fits-all.
    Senator Lankford. OK. Would your recommendation on the SES 
be that it is a longer or shorter--and I would agree, by the 
way. It does not to be a one-size-fits-all.
    Mr. Cox. I think SES'ers would definitely have a longer 
probationary period. As a registered nurse, I felt like a 2-
year period was a fair probationary period for me, that one 
year maybe would have been too short of a period.
    Senator Lankford. OK. Any other ideas on that specifically? 
Ms. Jones.
    Ms. Jones. On our work, we also found that some supervisors 
felt that they did not have enough time to review the 
employees' work, so we felt that the probationary period should 
be extended for at least one full supervisory cycle after the 
one year probation because the supervisors feel they do not 
have adequate time to assess employees.
    Senator Lankford. OK. Mr. Blair, do you have any other 
comment?
    Mr. Blair. Just one comment. We are talking about the 
probationary periods because once an employee reaches the 
conclusion of the probationary period, it then becomes so 
difficult to separate them after that. So I do not think you 
can necessarily consider the probationary period outside the 
context of looking at what the appeals process would be as 
well.
    Senator Lankford. Right. I would agree, and we can have 
that for an additional question in just a moment. At times and 
in some agencies and some instances, it feels like once you 
move past your probation, you just go tenure at the university.
    Mr. Blair. Absolutely.
    Senator Lankford. And it is tough to be able to shift from 
there, so we will talk about that in a moment.
    Joni, do you have a comment?
    Senator Ernst. Yes. With that issue, something that has 
been in the news so much, the VA, something near and dear to my 
heart, caring for our veterans. Senator Heitkamp had said, 
really understanding that mission that is out there, and as we 
talk about recruiting some of those best and brightest to work 
for us at the VA, understanding the challenge right now when 
you have an agency where someone has not been held accountable 
to our knowledge of some of the egregious misbehaviors within 
the VA, it is hard for the VA to say, we help veterans, when 
there have been a lot of instances where veterans have been let 
down.
    So there is a challenge there, and I do agree that, as you 
stated, Mr. Blair, that from the top down an agency will take 
on really the leadership or the personality of that leader. In 
the VA, of course, we have seen a change there. But, again, 
there is a lot of that reputation that has to be built back up 
again. And we have to see accountability at the highest levels 
and within that management structure. We really have not seen 
that in this particular agency. Any comments on how we can do 
better? What can we do better to make people accountable?
    Mr. Blair. I think one of the tools that we do not have to 
use for accountability is pay, because pay--performance 
management systems and pay are--the link is tenuous at best. I 
think another thing that needs to be done is, again, leadership 
attention, as you mentioned earlier. I think the Secretary 
needs--I would be interested to see how VA is recruiting right 
now, and I would defer to Mr. Cox as a current VA employee--I 
do not know if you are current or if you are former.
    Mr. Cox. I am retired.
    Mr. Blair. Retired, being employed, but I would like to 
hear--I am not sure how they could--I would like to know how 
well they can recruit right now given the current environment. 
I know that Congress has addressed this in terms of the senior 
executives with the VA, but I would like to see how the VA is 
utilizing that system. Shortened timeframes and cutting appeal 
rights in and of itself may be helpful, but you also have to 
balance it against constitutional requirements and case law and 
the opportunity to be heard.
    Again, this does not help the Subcommittee's path anyway, 
knowing these are the barriers that are out there. I keep on 
coming back to it is the leadership and setting the leadership 
tone from the top down and trying--and it is also a question of 
change management. There had been a culture in VA that would 
have allowed for this to happen, and determining how that 
culture arose, what can be done, and how can you change that 
culture is also terribly important. It cannot be changed 
overnight, but that should be one of the top priorities for the 
Secretary. Or it would be my recommendation that the Secretary 
address.
    Senator Ernst. Thank you, and I would agree. this was not 
just one isolated case in one hospital, but it was in many 
different locations across the United States that this 
happened. So there had to be a higher level of responsibility 
with some of these actions, and it would be interesting to find 
out.
    Senator Heitkamp. Actually, Senator Ernst, it was a reward 
system gone awry, is what it was. So hit this mark, and so let 
us rig the numbers so we hit the mark so we can get the award, 
as opposed to actually digging down and finding out what is 
happening. And so, I am not excusing anything, but I think 
there was this system put in place that was a benchmark that 
may have been impractical to begin with given the resources the 
VA has, and then people took that opportunity to try and say we 
are the best when they absolutely were not. They were the most 
dishonest.
    Senator Ernst. Right.
    Senator Heitkamp. And so, that is one of the things that we 
have to be very careful of, that when we set goals and 
aspirational kind of benchmarks, that we do not create fraud in 
achieving those marks.
    I would like to get to an issue that, just as a 
supervisor--and I think that it is one of the toughest things 
to take a good lawyer or to take a good accountant, to take a 
great nurse, and make them a supervisor. We just assume that 
they are going to have those skills to basically supervise 
people when, being a great nurse does not mean you can be a 
great supervisor or being a very good attorney does not mean 
you are going to be a good supervisor.
    And I think as a result many times what you do is you have 
people with an inability to motivate and an inability to 
actually deal with internal problems. And one of the reasons in 
my experience for dissatisfaction is when you have, 40 percent 
of the employees doing 100 percent of the work, and they feel 
devalued because there are a whole lot of people whose jobs 
they are doing because they want to get the job done.
    So how do we deal with that, Mr. Cox? How do we deal with 
those people who really get taken advantage of in the system 
because they are working hard, but they are working next to 
someone who is not working hard?
    Mr. Cox. No. 1, you are right, I think many agencies do not 
spend enough time on supervisory training, working with new 
supervisors, mentoring, developing them. We need people to do 
the work so quickly that we do not spend the time adequately 
giving them the skills to do the job well. And, again, trying 
to motivate all employees to--do their fair share. There are 
performance expectations for everyone in the system, and they 
are expected to do that. If they are not performing properly, 
there are provisions in current law to place employees on 
performance improvement plans, and otherwise deal with poor 
performers. Sometimes it is the fact that those employees were 
not properly trained.
    Senator Heitkamp. But it takes someone who is willing to 
sit across the table and engage in conflict. And that is not an 
easy thing for a lot of people. I know Ms. Niehaus has a lot to 
say on this, I think.
    Ms. Niehaus. And I think that if we have trained 
supervisors, they are able to do that. If you have an untrained 
supervisor or a minimally trained supervisor and they have an 
employee who is not performing, they do not know how to go to 
that employee. They do not know how to inspire that employee to 
work better or to hold them accountable.
    And if you also have a supervisor who is required to still 
do their technical duties, if you have a supervisor that is 
only giving 30 percent of their time to being a supervisor and 
to managing their employees, they are not going to be able to 
put the effort into mentoring and developing their employees to 
enable them to perform at the acceptable level.
    So I think that if we can educate our supervisors and our 
managers and we can train them to be good supervisors and 
managers instead of just promoting the best technician into a 
supervisory role--and I think we need to have dual career paths 
for our people. We need to have technician career paths, and we 
need to have manager career paths, because a lot of our 
technicians accept manager and supervisor jobs because it is a 
higher rate of pay, but they do not want to do that type of 
work. They love their technical jobs.
    Senator Lankford. I saw that in your written testimony. 
That is a very interesting point. They feel like they are 
stuck, they have great skills, and we as leaders in the Federal 
Government, we want them to stay in that because they 
contributed a tremendous amount, but they are trapped. It seems 
that the GS system allows them to continue to move up if they 
supervise more people, and so they have to make that jump. And 
so that to me is one of the areas that I saw where we have to 
ask the question: Is this the right way to do this? Are there 
other ideas you have seen or that others have seen for how do 
we do this dual track, as you referenced it, where there is not 
a compulsion--quite frankly, and twofold, one is that someone 
has to feel like they have to go supervise more people to do 
it, or that if I want to get a raise, I need to find some way 
for my agency to get more people under me so I can supervise 
more people and my pay goes up. So both of them are false 
incentives.
    Ms. Niehaus. I agree; they are. And I think if we have 
maybe a senior technician position where they are a lead 
technician, maybe mentoring people as opposed to trying to 
manage and supervise, maybe that is the way to go. But I agree 
that if you have to go into the management and supervisory 
roles to increase your pay, whether you feel you are suited for 
that or whether you really want to do that or not, I think it 
does a disservice to our technicians and to our managers.
    Senator Lankford. Mr. Blair.
    Mr. Blair. Well, I think we have experienced that already, 
don't we, through the China Lake demonstration projects and the 
other demonstration projects that are out there. The current 
General Schedule is not flexible enough for that.
    Ms. Niehaus. No, it is not.
    Mr. Blair. And that is not, to indict the General Schedule. 
It is 70 years old. And, it represents the best thinking of 
mid-20th century America. But we are fast approaching mid-21st 
century America, and I think it is time for some different 
things. Pay banding has long been an ``experiment'' in the 
Federal Government that actually has produced results. I think 
that----
    Ms. Niehaus. For over 30 years.
    Mr. Blair. And I think that more--I do not even think it is 
time for demonstration. I think we need--or if there is going 
to be demonstration, for instance, the demonstration project 
authority we have now is awkward, bulky, and it was set up in 
1978. It is limited to 5,000 people, all the notice and comment 
that has to be involved. There are ways of streamlining it 
while still giving employees adequate and meaningful input, but 
also allowing an agency to move forward. Modernizing those 
types of systems I think would go a long way.
    Senator Lankford. So is your recommendation that an agency 
as a whole would experiment with something new? How do you get 
a demonstration to show----
    Mr. Blair. I think you certainly----
    Senator Lankford [continuing]. Before with TSA, we look 
back at the numbers and such on it, but when you have these 
dual tracks, it gives you the opportunity to be able to see it. 
Is that a whole agency that does that or a whole new group of 
people? How do you do that?
    Mr. Blair. I think an agency or a component thereof, but 
make sure that it is larger than a 5,000-person unit in order 
to get good, demonstrable results. And I think that these are 
easy solutions. Implementation is harder, but these are easy 
solutions that have been out there for several years.
    Senator Lankford. Ms. Jones, you were trying to get in on 
this conversation.
    Ms. Jones. Thank you, Senator Lankford. A couple of 
observations.
    It is true that supervisors sometimes do not have adequate 
training in performance management, but sometimes they also 
feel that they do not have the support of senior leadership, 
and as many panelists have mentioned, the disciplinary process 
can be very cumbersome. So at root, the performance management 
system needs to be based on an understanding between agency 
leadership and all of the stakeholders that the performance 
management system is going to be applied to.
    Yes, it is true that supervisors need to be trained, but 
then once they are trained, what they need to do is to interact 
with their staff on a continual basis, which means that they 
can give feedback on a day-to-day basis that at midyear and at 
the end of the performance cycle, they get more formal 
feedback, but that also supervisors be trained to recognize 
when an underperforming staff member is not doing what he or 
she should do and to understand how to have conversations with 
them. And the performance management system has to be flexible 
enough so that, for example, if you need to have an out-of-
cycle performance rating so that a person understands the 
degree to which they are not performing, that that can be done.
    Senator Lankford. Can that be done now? Or that cannot be 
done?
    Ms. Jones. It can at certain agencies. We can do that at 
GAO. I think it varies from agency to agency.
    The other thing I wanted to mention is that the senior 
leader positions already exist. In some agencies, for example, 
at GAO, our chief economist, our chief actuary, they are senior 
leaders, not SES. So, I guess agencies will decide themselves 
what they need to do in terms of distinguishing between senior 
leaders who are managers and senior leaders who are more 
technically oriented.
    Senator Heitkamp. Well, I think the real challenge here is 
selecting the right supervision. And it has been my experience 
that you want people who can deal with conflict, but you want 
people who do not get drunk with power. And it is an 
interesting kind of balance. And you want people who can 
connect the employees to the mission.
    I like telling the story, because he is a great friend of 
mine, but I had a guy who worked for me who was the head of 
sales tax when I was tax commissioner. He would come in at 5 
o'clock every morning when no one else was there, and he would 
get through his paperwork. And then at 8, when the employees 
came in, he probably supervised about 40 employees. He would 
walk desk to desk and ask people how they were. And when they 
would tell him, ``I was late this morning because the kids were 
not moving,'' he would say, ``You know how I am? I am 
terrific.'' And by the end of the day, his whole division was 
terrific, because he had reached out to them every day. And 
when they did not perform, they did not want to disappoint him 
because he had that relationship.
    And it takes a special person who has many skill sets that 
we do not always find in people who are proficient in their 
occupation. And that is really the challenge: How do you make 
the workforce rewarding and more fun? I am not saying, let us--
but someplace that is light-hearted, some place where people 
feel a kinship or a friendship.
    And one of the things we know, we are not going to get 
Millennials to stay in the Federal workforce if we are overly 
bureaucratic. It is the ABC of failure: arrogance, bureaucracy, 
and complacency. And Millennials do not fit in that category. 
They are not bureaucratic in how they look at things. They are 
not complacent with the way things are. And they tend to be 
more collaborative and less arrogant.
    And so how do we avoid a system--I think it is Warren 
Buffett who uses the ABCs. But how do we jump-start this? 
Because we have a huge workforce, and moving this big ship to 
something that is more flexible and more attractive to a new 
workforce is going to be extraordinarily difficult. So some 
ideas on how we can infect this whole system with maybe more 
enthusiasm for what we do every day? And I should talk. I 
complain all the time about what I do all day. But, Ms. 
Niehaus, obviously, you have great experience where you work 
and care a great deal about the job that you do, but I think 
also experience this level of frustration.
    Ms. Niehaus. Yes, and I see our workers, and a lot of our 
workers at Travis Air Force Base are veterans. I mean, the 
majority of our new hires are veterans, so they already 
understand the importance of our mission. But I think we might 
be able to do a better job with the new employees who are not 
veterans and who have not already been through military service 
of explaining what their role is in the mission. And I think 
that if our supervisors are trained to orient employees that 
way so that they know, ``OK, you are turning a wrench on this 
aircraft and that aircraft goes and refuels other aircraft to 
allow them to perform mission in a war zone,'' I think it makes 
more impression than if somebody is just told, ``OK, go change 
the tire on this airplane.'' But our supervisors need to be 
trained in how to do that.
    Senator Heitkamp. I think that is right. Ms. Jones.
    Ms. Jones. I would just like to make one more point about 
performance management. Our discussions have shown with 
supervisors across agencies that even when someone is 
performing poorly, that if it is possible to supervise them 
appropriately, to explain to them why they are not doing their 
work in a proper way, and to bring about an improvement in 
their work so that they do not have to be dismissed, that is 
actually a better result than dismissing someone. We have 
talked about the cumbersome nature of dismissals, but the 
agency has spent a lot of money recruiting the person, training 
the person. The person has learned a great deal about their 
work and the agency's work overall and how the Federal 
Government operates. So if it is possible to have a more 
positive outcome rather than a negative outcome, that would be 
better.
    Senator Lankford. Redemption is always better. I will take 
that every time.
    While you are dipping into that, there is one more big 
issue that we have kind of skirted around, and it is the 
termination process. We talked about the probation. We talked 
about some of the hiring things. Everyone has mentioned at some 
level, either in their written testimony or orally, something 
about the termination process. There are several ideas that 
were presented out there, but here are a couple things that I 
heard when I read through the materials and heard some of the 
oral testimony.
    One was the administrative leave and the length of that, 
the paid administrative leave and how long that is.
    The other thing was a statement that went around the morale 
issue, that individuals--and I have seen it. When there is an 
individual that everyone knows is a problem in the middle of 
the team, it hurts morale for the entire team. And everyone 
gets frustrated by that, and everyone knows I am being paid the 
same as that person is, but they are not doing their work, so 
it brings down the whole team. But everyone also knows in the 
Federal workforce it is incredibly difficult for someone to be 
released. And so we all put up with it.
    So how do we fix that where we can actually protect some 
worker from a supervisor that may be an ogre that just wants to 
release everybody? So we want to give them some kind of due 
process to make sure we do not have a bad supervisor and that 
is why we have a bad environment, but to also deal with the 
employee that is just not cutting it at this point. So let us 
talk through some of the basics of that real quick. Specific 
ideas would be helpful. Mr. Blair.
    Mr. Blair. Thank you. In my testimony, I outlined a couple 
of ideas, and I do not have the magic bullet for this, but it 
does seem to me----
    Senator Lankford. We need it. [Laughter.]
    Mr. Blair. Well, let us see if we can come up with 
something. It is a maze right now. You have multiple bites at 
the apple, and there are long policy justifications for the 
current system. But the current system adds to the cynicism. So 
I think we need to look at it afresh. This is something that I 
think the expertise lies in OPM and MSPB.
    Senator Lankford. Do they have the authorities right now 
that they need to----
    Mr. Blair. I do not think they have the authorities to 
properly demonstrate it. I recommend a demonstration project or 
demos, pilot projects of some kind. Even if that is not 
feasibly, to come up with some recommendations on how--what 
should be changed in legislation in order to make it 
transparent accountable, but also give the public a sense 
that--along with due process, but give the public the sense 
that employees are being held accountable.
    These are things that you cannot come up with in a day, but 
you are starting this process at a very important time, and 
these are things that as you said earlier, teed up for the 
transition issue.
    I would like to go back to the Academy. I have folks who 
span the spectrum on different ways of doing these types of 
things, and I would look forward to that opportunity to engage 
them in some way and say, look I have members, a former 
president of the National Treasury Employees Union is a Fellow. 
One of my former board members was a political action director 
for Mr. Cox's union as well and was their communications 
director. I have agency heads. We span the spectrum. And a 
panel of Fellows looking at something like that can thread the 
needle. We have threaded the needle before for this Committee. 
We did work for you all 2 years ago on the STOCK Act. Congress 
looked at our report and adopted the recommendations. So I 
would be interested in seeing how we could be engaged to come 
back and bring together the best collective thinking in the 
Academy on something like this, and we can do that on a timely 
basis.
    Senator Lankford. That would be helpful to us because, 
again, this is an issue that hurts high-performing teams. This 
is not just a matter of the Federal taxpayer paying someone who 
is not pulling their weight. It is a matter of demoralizing a 
whole team, a whole group of people, and I will be interested 
to know when we read through for Defense, VA, and Homeland 
Security if they are dealing with this or there are other 
issues that are in the process of what is causing this lack of 
employee engagement on this. But other ideas that this group 
has on dealing with the termination process to make sure that 
it is both fair but that it actually has a functioning process 
rather than someone just saying, ``It is so hard to do it, I am 
just not going to even try. I will just leave him there and 
ignore him.''
    Mr. Cox. I think part of the process is, again, what the 
Senator said earlier. Many times people do not want to deal 
with conflict. I have represented employees that have done 
things that were wrong. The process went very timely. There was 
an investigation done. The employee had due process. They 
suffered the consequence, and they paid the price. And many of 
them left the agency or either received some type of 
disciplinary action. Frequently, managers want to put it off 
and not deal with it. The provisions are there to move in a 
very timely process. All of AFGE's contracts call for quick 
action of investigation, tell employees they have done 
something wrong, deal with them.
    Also, with the forum issue, employees must choose to file 
either through a negotiated grievance procedure, EEO, or MSPB. 
I see them try to go in several different directions, and they 
get kicked out and lose out because you just cannot, forum 
shop. The laws are constructed such that you have to be in one 
avenue and stay in that avenue. So there are procedures to deal 
with that.
    Senator Heitkamp. One of the complicating factors of these 
is frequently a manager will figure out a way to get rid of 
that employee and send them to another team. So they can poison 
more than one group of people. I think we have to start with 
training supervisors to deal with conflict, to try and take 
corrective action, to put--do not have low expectations of 
employees. That is one of the challenges you have, is you say 
it is good enough, it is C work. Well, I need A-plus work, so 
let us try and get A-plus work and make them part of the team. 
And I think most people are redeemable. There are people who 
are just bad actors and are not interested in putting in a fair 
amount of work. But I think most people with the right kind of 
supervision and with the right kind of training can be very 
good employees, but yet they fail because they get in this 
cycle of failure and get so demoralized that they are just 
filling in space and time. And I think early capture of 
problems--which is why the probationary period is so important. 
Early capture of these problems I think is also part of--you 
cannot just look at the termination process as just that 
process of going through the steps of terminating employment. 
You have to look at it as the whole supervision possibility 
from the very beginning, and so I do not look at these as two 
different pieces. I look at this as an overall management 
challenge.
    Senator Lankford. And even in your description there, Mr. 
Cox, talking about all the different lanes that they could get 
in through the process, when you deal with Chapter 43 or 
Chapter 75 of the U.S. Code and that process and where they are 
going to go and understanding this is performance related or 
this is based on a specific action, and based on that action it 
gets very complicated in the process. And what you were 
describing as far as a quick process, if someone does something 
that is really dumb, it becomes this large-scale action, event, 
statement, explosion in work, what they are going to do with 
their attitude, it becomes very clear. But if it is just low 
performance and they have been trained, and they have been 
trained, and they have been trained, and they are not coming 
up, it is how do you help them, say OK, this is the wrong fit? 
To go with the good to great philosophy, you are in the wrong 
seat on the bus. We need to move you to a different seat on the 
bus and see if that works better, and if that seat does not 
work, we may need to move you off the bus. That is the 
difficulty of the process on it.
    So any other comments or ideas on this? Because this is one 
of the difficult things we have to deal with.
    Ms. Niehaus. Well, I think, as Senator Heitkamp said, not 
only do we have to train our supervisors, we have to give them 
time to supervise. You used an example of someone who came in 
at 5 in the morning, and their employees come in at 8. Not 
everyone can do that. Most of our supervisors have families, 
and they have lives outside of the office or the duty section. 
So we need to structure our supervisory positions so that they 
have time to actually be supervisors and managers and not just 
technicians working, with an additional duty on top of their 
technical work.
    Senator Lankford. OK. Ms. Jones.
    Ms. Jones. I would say that it would be very important in 
terms of the cost to the government of figuring out a way to 
resolve these issues earlier. There are relatively few Federal 
employees who stay on administrative leave for more than 30 
days and relatively even fewer still who stay on for 6 months 
or more than a year.
    What we found in our prior work, though, is that this very 
small number of employees, the cost of them staying on 
administrative leave is much higher than their numbers would 
imply. So figuring out a way--and performance-related issues 
was one of the major reasons why they stayed on administrative 
leave for a long time. So figuring out a way to deal with 
situations earlier and much more expeditiously would be 
helpful.
    Senator Lankford. OK. I want this panel to know that we are 
very interested in hearing the specific ideas because we want 
to help in this process. We have some great Federal employees 
that are out there that we like to put good team members around 
them that are working at the same level that they are because 
it builds morale and it, quite frankly, is better value for the 
taxpayer, and it builds that enthusiasm and quality of work. So 
this is one of those complicated issues that we have to resolve 
in the days ahead, and I look forward to that conversation and 
other ideas, and thanks again for your testimony on this.
    I am going to go ahead and close the hearing down. Other 
members that were not here, they will have 7 additional days to 
be able to put a statement officially for the record, and we 
will followup with questions for the record as well in the days 
ahead.
    I look forward to the ongoing conversation we will have 
about trying to resolve this. Thanks again. This hearing is 
closed.
    [Whereupon, at 11:28 a.m., the Subcommittee was adjourned.]
    
    
    
    
    
                            A P P E N D I X

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
